LACK OF DOCUMENTATION AND INCORRECT 

ACCOUNTING FOR RECOVERY ACT 7(A) LOAN 

         GUARANTY APPROVALS 


            Report Number: ROM 11-02 

           Date Issued: December 15,2010 





                 Prepared by the 

           Office of Inspector General 

       U.S. Small Business Administration 

             U.S. Small Business Administration
             Office Inspector General
                                                    Memorandum
    To: 	    Steven Smits                                           Date:   December 15, 2010
             A.ssociate Administrator for Capital Access
             lsi Original Signed
  From: 	    PeterMcClintock 

             Deputy Inspector General 


Subject: 	   Recovery Act 7(a) Loan Guaranty Approvals
             ROM 11-02

             Attached is the Management Letter issued by KPMG LLP which identifies a
             matter that came to their attention during the audit of SBA' s FY 2010 financial
             statements. The objective was to determine SBA's compliance with its
             guidance for approving 7(a) loan guaranties funded under the Recovery Act.
             KPMG addressed recommendations to the Director for the Office of Financial
             Program Operations. We provided a draft ofKPMG's report to this official or
             his designee, who concurred with the finding. The official or designee agreed
             to implement the recommendations or has already taken action to address the
             underlying conditions.

             Should you or your staffhave any questions, please contact Jeffrey R. Brindle,
             Director, Information Technology and Financial Management Group at (202)
             205- [FOIAex. 2]

             Cc: 	 Jonathan 1. Carver
                              KPMG LLP
                              2001 M Street, NW
                              Washington , DC 20036-3389




                     AMERICAN RECOVERY AND REINVESTMENT ACT 

                               MANAGEMENT LETTER 



December 15,2010


CONFIDENTIAL

Office of the Inspector General,
U.S. Small Business Administration, and
Administrator of the SBA:


We were engaged by the Office ofInspector General (OIG) to perform supplemental audit services for the
purpose of testing certain transactions and system enhancements related to the U.S. Small Business
Administration's (SBA) implementation of the American Recovery and Reinvestment Act of 2009
(ARRA). The procedures were performed as part of an expanded scope of our fiscal year 2010 audit of
SBA's consolidated financial statements. In planning and performing our audit procedures related to
SBA's implementation of ARRA, we considered internal control related to the implementation and
operation of the ARRA programs that were in place as of September 30, 2010.

During our audit, we noted a matter involving internal control concerning a lack of documentation and
incorrect accounting pertaining to ARRA 7(a) loan guaranty approvals. The comments and resulting
recommendations, presented in the Exhibit, have been discussed with the appropriate members of
management and are intended to improve internal control or result in other operating efficiencies.

We would be pleased to discuss these comments and resulting recommendation with you at any time.

This report is intended solely for the information and use of the OIG, SBA management, and others
within the organization and is not intended to be, and should not be, used by anyone other than these
specified parties.




                                 KPMG LLP is a Delaware lim ited liability partnership,
                                 the U. S. member firm of KPMG International Cooperative
                                 (UKP MG International"), a Swiss entity.
                                                                                                    Exhibit
                            U.S. SMALL BUSINESS ADMINISTRATION 

                               American Recovery and Reinvestment Act 

                                   Management Letter Comments 

                                             FY 2010 



LACK OF DOCUMENTATION AND INCORRECT ACCOUNTING

Conditions:

During our testwork over American Recovery and Reinvestment Act (ARRA) 7(a) loan guaranty
approvals at the Sacramento Loan Guaranty Processing Center (LGPC), we noted the following:

    1. Lack of Documentation

                Defense Bill 7(a) loan guaranty #3827945004 was cancelled and replaced with a new
                loan guaranty #3805545001 due to an unknown and undocumented issue. The loan file
                did not contain documentation to support the loan cancellation and the subsequent
                approval ofa non-ARRA 7(a) loan.

    2. Incorrect Accounting

                For Defense Bill 7(a) CAPLine loan guaranty #3841855008, the approval was authorized
                in error. The loan guaranty was not eligible for approval under the Defense Bill, because
                the term in the loan application was only one year.

Criteria:

Department ofDefense Appropriations Act, 2010 P.L. 111-118, states: 

"SEC. 1006. (a) There is hereby appropriated $125,000,000, for an additional amount for 'Small Business 

Administration- Business Loans Program Account' for fee reductions and eliminations under section 501 

of division A of the American Recovery and Reinvestment Act of 2009 (Public Law 111- 5) and for the 

cost of guaranteed loans under section 502 of such division." 


Office of Management and Budget (OMB) Circular A-129 Revised, Policies for Federal Credit 

Programs, states: 

"Approved loan files (or other systems of records) shall contain adequate and up-to-date information 

reflecting terms and conditions of the loan, payment history, including occurrences of delinquencies and 

defaults, and any subsequent loan actions which result in payment deferrals, refinancing, or 

rescheduling. " 


Federal Register, Vol. 74 No. 108, Applicability Date ofFee ReliefProvisions, states: 

"Section 501 fee relief applies to 7(a) loan applications with a term greater than one year that are 

approved, or issued loan numbers for delegated lender loans, by SBA on or after February 17, 

2009." 


Causes:

The issues identified were attributed to inadequate supervisory loan officer review over the loan guaranty
approval process. According to LGPC personnel, the loan submit button was hit twice, which required the
                                                                                                    Exhibit
                              U.S. SMALL BUSINESS ADMINISTRATION
                                 American Recovery and Reinvestment Act 

                                     Management Letter Comments 

                                               FY 2010 



cancellation of loan guaranty #3827945004. Additionally, LGPC staff inadvertently sent an authorization
with Section 501 of ARRA for loan guaranty #3841855008, which should have been recorded as a non­
ARRA CAPLine loan.

Effects:

Lack of documentation and incorrect accounting increases the risk of potential errors and misstatements
in the fmancial statements and note disclosures. Specifically, the total 7(a) loan guaranty approval account
(SBA's share) was overstated by $1 ,499,910. KPMG notes that SBA researched all the CAPLine loans
known to be erroneously charged to ARRAIARRA-like Treasury Appropriation Fund Symbols. As a
result, SBA identified 11 (out of 78) additional, incorrectly funded CAPLine loans approved as of the date
of our testing. These errors resulted in a total overstatement in the 7(a) guaranty approval account (SBA's
share) of$3 ,440,835.

Recommendation:

We recommend the Office of Financial Program Operations Director:

           1. Reinforce the importance 	of effective review of loan guaranty applications by a loan officer
              and supervisory loan officer to ensure that loan files contain proper documentation to support
              the approval or denial determination, that loan guaranty transactions are properly recorded in
              the Loan Accounting System, and that transactions are posted to the proper program and
              financing accounts.


Management's Response:


SBA management concurs with the fmdings and recommendation.




                                                                                                          2
